,
                              -                            -
                                                           A
                                                                 -
                                                                -.-
                                                                                                            -      9   -
                                I




                                                       OFFICE OF INSPECTOR GENERAL
                                                                                                                       2
                                                         OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM




                                                                                       '
             A proactive review of participant support funds allocated in IVSF awards under a PI^ from a
             Midwest university3 resulted in an investigation to determine whether IVSF funds were used


             The investigation concluded that the university did not provide proper overview of NSF awards
             and guidance to the PI. Neither the university nor the PI had applied for or obtained the authority
             to reallocate the participant support funds from the NSF Program officer4, as required.

             The university agreed and reimbursed NSF $19,046.46 for the first award5 and $255.36 for the
             second award6. In addition, the vice president for research7 sent an accompanying letter stating
             that, The Office of Sponsored Projects would review all award letters carefully to ensure the
             project Information Sheet submitted to departments is accurate.

             With the crediting of both awards and the letter regarding future compliance, all issues are


             Accordingly, this case is closed.




               XXXXXXXXXXX
               xxxXXXXXXXX


               xxxXXXXXXXX




    NSF OIG Form 2 (1 1/02)
